OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PHILIPPINES’
INFRASTRUCTURE ACTIVITIES
UNDER ITS GROWTH WITH
EQUITY IN MINDANAO-2
PROGRAM

AUDIT REPORT NO. 5-492-08-008-P
July 31, 2008




MANILA, PHILIPPINES

Office of Inspector General


July 31, 2008

MEMORANDUM

TO:       	          Acting USAID/Philippines Director, Elzadia Washington

FROM: 	              Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	            Audit of USAID/Philippines’ Infrastructure Activities under its Growth with Equity
                     in Mindanao-2 Program (Report No. 5-492-08-008-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing the report, we considered your comments to the draft report and included the
comments (without attachments) in appendix II.

This report contains three recommendations to assist USAID/Philippines in improving its
implementation and management of the subject program. Based on the information provided by
the mission in response to the draft report, we consider that final actions have been taken on
each of the three recommendations.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd.,
1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ...................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective ................................................................................................................. 3


Audit Findings ................................................................................................................. 4 


Did USAID/Philippines’ infrastructure activities under its Growth with Equity 

in Mindanao-2 Program, implemented by Louis Berger Group, Inc.,
achieve planned results, and what was the impact?

     Completed Infrastructure Projects Need
     More Inspections and Maintenance ........................................................................... 6 


     Surety Bond Beneficiaries Pose Legal
     Uncertainty .................................................................................................................. 9 


     New Agreements Should Be Signed 

     with Philippine Government 

     Counterparts ............................................................................................................. 10 


     Annual Work Plans Were Incomplete
     and Not Approved As Required ................................................................................ 11 


     Progress Reports Lacked Essential 

     Information ................................................................................................................ 13 


Evaluation of Management Comments ....................................................................... 14 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 

SUMMARY OF RESULTS

The southern Philippine island of Mindanao, including the Sulu Archipelago, is home to
about 22 million people, representing close to a quarter of the total Philippine population
of almost 89 million. About 20 percent of those on Mindanao are Muslims, concentrated
in the southwestern area of the island. Known as the Autonomous Region in Muslim
Mindanao, this area was created in 1989 by the Philippine Government. Despite the
subsequent peace agreement signed in 1996 between the Government and the largest
Muslim separatist group, which had fought for nearly 3 decades for independence or
some form of autonomy, other groups have continued to cause unrest (see page 2).

USAID/Philippines has been implementing major assistance efforts in Mindanao for well
over 10 years. In 1995, USAID expanded its assistance efforts to cover all of Mindanao
and the Sulu Archipelago. After the signing of the peace agreement in 1996, USAID
intensified aid in the conflict-affected areas of Mindanao (see page 2).

To implement its expanded assistance efforts, USAID/Philippines conceived the initial
Growth with Equity in Mindanao (GEM-1) Program, which operated from 1996 to 2002.
Considered to be the mission’s “flagship” activity in Mindanao, this program was
expanded and then continued for another 5 years as the GEM-2 Program. The GEM-2
contract eventually totaled $83.6 million, most of which had been spent by
December 31, 2007. The program covered a wide range of activities, of which the
largest were infrastructure developments—the focus of the audit. Other activities were
aimed at improving business and governmental practices as well as strengthening
education (see pages 2--3).

In December 2007, USAID/Philippines awarded the contractor another 5-year contract,
which had a total estimated cost of close to $126 million, to continue similar activities
under the GEM-3 Program (see page 3).

USAID/Philippines achieved completion of the planned infrastructure projects under the
GEM-2 program. The infrastructure projects had a positive impact on the communities
they were intended to benefit (see page 4).

However, USAID/Philippines could have improved the implementation and management
of the program in three areas: (1) completed infrastructure projects needed more
inspections and maintenance; (2) surety bond beneficiaries posed legal uncertainty; and
(3) new agreements should be signed with Philippine Government counterparts. This
audit provided recommendations to address these three areas (see pages 6–11). The
audit also noted two problem areas dealing with work plans and progress reports for
which no recommendations were made because the GEM-3 contract contains language
addressing the problems noted (see pages 11–13).

In its response to the draft report, USAID/Philippines agreed with the findings and
recommendations. Based on the audit’s review of the mission’s comments, detailed
actions, and supporting documents received, the audit determined that final actions have
been taken on the three recommendations in this report. USAID/Philippines’ written
comments on the draft report are included in their entirety as appendix II to this report.




                                                                                         1
BACKGROUND

The southern Philippine island of Mindanao, including the Sulu Archipelago, is home to
about 22 million people, representing close to a quarter of the total Philippine population
of almost 89 million. About 20 percent of those on Mindanao are Muslims, concentrated
in the southwestern area of the island. Known as the Autonomous Region in Muslim
Mindanao, this area was created in 1989 by the Philippine Government. Despite the
subsequent peace agreement signed in 1996 between the Government and the largest
Muslim separatist group, which had fought for nearly 3 decades for independence or
some form of autonomy, other groups have continued to cause unrest. Violence and
fears of violence are hindering economic growth and the emergence of economic
opportunity. The absence of economic opportunity, in turn, helps maintain a situation
where many individuals are ready to turn to violence and rebellion in the hope of
improving their economic prospects.

USAID/Philippines has been implementing major assistance efforts in Mindanao for well
over 10 years. In 1995, USAID expanded its assistance efforts to cover all of Mindanao
and the Sulu Archipelago. After the signing of the peace agreement in 1996, USAID
intensified aid in the conflict-affected areas of Mindanao.

                  Figure 1. Map of Mindanao, Southern Philippines




To implement its expanded assistance efforts, USAID/Philippines conceived the initial
Growth with Equity in Mindanao (GEM-1) Program, which operated from 1996 to 2002.
Considered to be the mission’s “flagship” activity in Mindanao, this program was
expanded and then continued for another 5 years. Known as the GEM-2 Program, it
had two related objectives: (1) to help bring about and consolidate peace in Mindanao
and (2) to accelerate economic growth in Mindanao and help ensure that as many


                                                                                         2
people as possible, including members of cultural minorities, benefit from the economic
growth.

Like GEM-1, which had a total contract cost of $37.6 million, the GEM-2 Program was
implemented by the Louis Berger Group, Inc. (contractor). The original GEM-2 contract
was for the period from August 15, 2002, to August 14, 2007, and totaled $54.8 million.
After several modifications, the contract amount was increased to $83.6 million and the
period extended to December 31, 2007.

The GEM-2 program was USAID/Philippines’ single largest activity. It covered a wide
range of activities that were aimed at accelerating economic growth throughout
Mindanao, especially in conflict-affected areas. The largest of the GEM-2 program
activities were infrastructure developments involving ports, road and bridge
improvements, and hundreds of small construction projects such as water systems,
warehouses, solar crop dryers, boat landings, footbridges, and community centers.

Initially, the GEM-2 program’s other activities were aimed at supporting the creation
and/or strengthening of business support organizations; assisting in the wide-scale
production, marketing, and export of potentially lucrative nontraditional crops and
commodities; and adopting and implementing improved governmental practices.
Subsequently, significant activities, such as introducing computer and Internet education
and working in joint efforts with parent-teacher-community associations to establish
school libraries and science laboratories, were added to the program.

This audit focused on the largest component of the GEM-2 program, infrastructure
development, which had a contract budget of $41.6 million, representing about half of
the total program contract budget of $83.6 million. As of December 31, 2007, the
contractor had spent $82.1 million. As of the same date, USAID/Philippines had
disbursed $80.3 million for the GEM-2 program, which was managed by the Office of
Economic and Democratic Governance.

In December 2007, USAID/Philippines awarded the contractor another 5-year contract,
which had a total estimated cost of close to $126 million, to continue similar activities
under the GEM-3 Program.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2008 annual audit plan to answer the following question:

•	 Did USAID/Philippines’ infrastructure activities under its Growth with Equity in
   Mindanao-2 Program, implemented by Louis Berger Group, Inc., achieve planned
   results, and what was the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS

USAID/Philippines achieved completion of the planned infrastructure projects under the
Growth with Equity in Mindanao-2 (GEM-2) program. The infrastructure projects that
were implemented had a positive impact on the communities they were intended to
benefit.

The GEM-2 program completed the 40 planned Regional Infrastructure Projects (RIPs)1
and all 830 of the planned Barangay Infrastructure Projects (BIPs).2 RIPs are relatively
larger and higher-impact projects (see table 1), whereas BIPs are smaller, community-
based projects (see table 2). According to the mission’s GEM-2 contract, the cost range
of a RIP was between $500,000 and $1 million, whereas that of a BIP was between
$5,000 and $25,000.

Based on the diversity of infrastructure projects implemented, the number of reported
beneficiaries, and the overall satisfaction of the communities involved, the infrastructure
projects for the GEM-2 program had a significant impact on the affected areas in
Mindanao. The mission has contracted with Management Systems International to
conduct an extensive evaluation of the overall impact and effectiveness of all USAID
assistance on peace, development, and conflict reduction in Mindanao.

Tables 1 and 2 provide an informative summary of the project types and locations.
Western Mindanao includes the Zamboanga peninsular area in the far west of the island
and the Sulu Archipelago. Central/Northern Mindanao includes the provinces along the
central and north portions of the island around Cotabato City.

Table 1. Regional Infrastructure Projects (RIPs)

                                                     Location
                                                           Central/Northern
             Project Type               Western Mindanao      Mindanao                Total
    Bridges                                      5                     9               14
    Roads                                        6                     7               13
    Ports                                       11                     0               11
    Commercial Center Building                   0                     1                1
    Water Supply                                 1                     0                1
    Total                                       23                    17               40


1
  Although GEM-2 reported completion of all 40 planned RIPs, 7 of these RIPs were originally
BIPs that exceeded the BIP cost range beginning in 2006. As a result, the mission and contractor
lowered the RIP cost threshold to $55,000 and reclassified them as RIPs. There was no formal
approval or contract modification for this change.
2
  Although reported as completed, one of the BIPs—a water supply project—was completed after
the contract had expired. In addition, three BIPs had final costs that ranged between $58,000
and $100,000 but were still reported as completed BIPs, regardless of the informal change
discussed in footnote 1.


                                                                                              4
Table 2: Barangay Infrastructure Projects (BIPs)

                                                            Location
                                                 Western      Central/Northern
                 Project Type                    Mindanao         Mindanao       Total
 Grains Solar Dryers                                 9              105          114
 Box/Pipe Culverts and Spillways                    15               81           96
 Drainage Canal                                     26               66           92
 Boat Landings                                      50               15           65
 Passenger Waiting Sheds                            17               44           61
 Seaweed Solar Dryers                               52                5           57
 Grains Warehouses and Solar Dryers                  6               49           55
 Community Centers                                  19               35           54
 Road Upgrades                                      12               40           52
 Trading Centers                                    16               32           48
 Footbridges                                        25               17           42
 Potable Water Systems                              13               27           40
 Others (covered walkways, solar panels, etc.)      22               15           37
 Seaweed Warehouses and Solar Dryers                 9                1           10
 Irrigation Canals/Facilities                        0                7            7
 Total                                             291              539          830


The GEM-2 program’s key Philippine Government counterpart was the Mindanao
Economic Development Council (Council). USAID/Philippines and the Council entered
into a memorandum of agreement to help establish roles and responsibilities for the
GEM-2 program. Both USAID and the Council provided monitoring and oversight of the
program and a GEM-2 Steering Committee was established, chaired by the chairman of
the Council.

Along with reviewing the GEM-2 files of the mission and the contractor, USAID auditors
visited 7 of the 40 RIPs and 7 of the 830 BIPs reported as completed by the contractor.
In general, the auditors found that the infrastructure projects visited were completed,
appeared to be well constructed, and were being used by the intended beneficiaries.
However, as shown in the discussion below, the auditors identified a number of areas in
some of the infrastructure projects and matters related to the GEM-2 program that could
be improved.




                                                                                       5
 Photograph of a concrete two-lane bridge, a regional infrastructure project, on the Sulu
 Archipelago island of Basilan. On the right is the old one-lane bridge that was replaced.
 (Office of Inspector General, February 2008)


Completed Infrastructure Projects
Need More Inspections and Maintenance
 Summary: Under the GEM-2 contract, as part of a memorandum of agreement, local
 municipal governments agreed to maintain the facilities provided to them. Moreover,
 in accepting the project as documented by the project turnover/acceptance certificate,
 the local governments signified their commitment to operate and maintain the
 completed project in accordance with the memorandum of agreement. However,
 some of the completed infrastructure projects were not properly maintained or used.
 The local governments were slow both in recognizing the need for maintenance and in
 providing it once the need became clear. As a result of maintenance problems with
 some infrastructure projects, the intended beneficiaries will not be able to fully benefit
 from the facilities, and the sustainability of the facilities could be in peril.

According to the GEM-2 contract, Louis Berger Group, Inc. (contractor) was to carry out
an infrastructure program for the completion of regional and barangay projects that were
intended to improve the quality of life and economic well-being of intended beneficiaries.

Under that contract, a memorandum of agreement was signed with each municipal local
government in which the contractor required the local government to receive training in
operations and maintenance. Moreover, in accepting the project as documented by the
project turnover/acceptance certificate, the local government signified its commitment to
operate and maintain the completed project in accordance with the memorandum of
agreement.



                                                                                             6
Photograph of the Cotabato City Square, a regional infrastructure project, on the west central
coast of Mindanao. (Office of Inspector General, February 2008)


During visits to completed infrastructure projects, the audit team noted that some of the
projects were not properly maintained or used by the local governments. For example, a
number of problems were found with some of the completed regional projects, as
described below.

•	   The Bobo Bridge had a girder at the bottom of the bridge that was so loose it had to
     be removed because villagers feared someone might steal it. Other girders also
     were loose but were left in place to await the needed repairs. The bridge was
     completed on September 15, 2007.

•	   The Cotabato City Square, the most expensive infrastructure project, had not been
     placed in operation because the mayor and city council could not reach an
     agreement as to who should operate the facility and how. This commercial center
     was completed on September 20, 2007.

•	   The Maluso Port has sectional areas, within and along the perimeter fence of the
     port, that have started to settle. The settling has caused depressions in some
     sections of the port, and significant cracks have started to appear along the
     perimeter fence. These structural problems are likely to affect the operation of the
     port, and repair costs are expected to be substantial. The port was completed on
     September 12, 2007.

•	   Sections of the gravel Tuburan Road had started to deteriorate prematurely. The
     road was reported as completed on February 28, 2007.



                                                                                                 7
In addition, problems were uncovered in some of the smaller barangay projects, as
shown below.

•	      Drains that had been improved as part of an improved water drainage system had
        not been cleaned.

•	      A water faucet that was installed as a part of a water supply system had significant
        leaks that had gone without repair.

•	      A box culvert,3 erected as part of a road project had mud that had accumulated
        several inches deep on the culvert, which made it difficult for vehicles approaching
        and exiting the box culvert to pass by.

After the audit team brought these issues to the attention of the contractor, the
contractor proceeded to initiate actions to correct some of the problems.

In terms of periodic monitoring, the contractor performed “beneficial use monitoring,”
which involved visits to recently completed barangay projects, specifically to determine
issues relating to the operations and maintenance of completed facilities. Although there
were many monitoring visits over the course of the program, precarious security
conditions and inclement weather made it difficult to closely monitor so many projects.
In addition, the final monitoring visits were directed only to the barangay projects. Thus,
the contractor was not aware that some significant problems had developed with some
of the completed regional projects.

Another important aspect of monitoring was that the local governments should assume
responsibility for operating and maintaining the projects after completion. However, the
local governments were sometimes slow in recognizing the need for maintenance and in
providing it once the need became clear.

If problems with completed infrastructure projects are not promptly detected,
USAID/Philippines could lose its opportunity to have the problems addressed during the
warranty period of 1 year (see separate finding on page 9). In addition, if problems are
not immediately addressed, the completed projects will not fully deliver their intended
benefits, the projects may not be sustainable, and beneficiaries and other interested
parties may form a negative image of USAID-funded projects. This audit report
therefore makes the following recommendation.

       Recommendation No. 1: We recommend that USAID/Philippines conduct
      postcompletion inspections on a sample of projects to ensure that they are being
      used as intended and maintained by local governments before awarding those same
      local governments any future projects.




3
     A box culvert is a box-shaped sewer or drain passing under a road or embankment.


                                                                                          8
Surety Bond Beneficiaries
Pose Legal Uncertainty
 Summary: To help ensure that completed infrastructure projects were sustainable,
 the contractor required subcontractors to obtain surety bonds to guarantee the repair
 of defects for the completed projects. The subcontractors obtained the required
 surety bonds with either Louis Berger Group, Inc., or the GEM-2 program as the
 named beneficiary. The providers of the surety bonds could potentially question the
 eligibility of USAID to exercise any rights bestowed by the surety bonds on the named
 beneficiary.     Neither the contractor nor the mission had recognized the potential
 problem with only the contractor or the GEM-2 program as the named beneficiary in
 the surety bonds. As a result, USAID/Philippines may not be able to claim and collect
 on the surety bonds.

The construction of GEM-2 infrastructure projects was subcontracted by the contractor
to local construction firms that were required to provide surety bonds for the completed
projects. These bonds provided a 365-day warranty to repair any defects discovered
after project completion.

The audit determined that the subcontractors obtained the required surety bonds.
However, the beneficiary of the surety bonds was identified as either the contractor or
the GEM-2 program. Neither the contractor nor the mission had recognized the potential
problem with only the contractor or the GEM-2 program, as opposed to USAID, being
named as the beneficiary in the surety bonds issued.

If the contract with the contractor ends or is prematurely cancelled, USAID may not be
able to claim and collect on surety bonds issued on behalf of subcontractors who
completed projects under the GEM-2 program and provided warranties for the work
completed. Since the surety bonds named the contractor and/or the GEM-2 program,
the providers of the surety bonds could potentially question the eligibility of USAID to
exercise any rights bestowed by the surety bonds on the named beneficiary. Therefore,
collection could be in doubt or not obtainable at all. As a result, this audit report makes
the following recommendation.

    Recommendation No. 2: We recommend that USAID/Philippines obtain a legal
   counsel determination on USAID's legal rights regarding the surety bonds under
   the Growth with Equity in Mindanao-2 program.




                                                                                         9
New Agreements Should Be
Signed With Philippine Government Counterparts

 Summary: USAID’s policy recognizes its critical coordinating role with respect to
 partners and host country governments, encouraging strategic operating teams to
 establish periodic meetings with broader partner groups in order to share information
 and elicit feedback.      However, considerable delays were experienced before
 USAID/Philippines and its Philippine Government counterparts signed the GEM-2
 implementation agreements. Also, as of April 2, 2008, no agreements between the
 mission and its Philippine counterparts had been signed for the new GEM-3 program.
 According to mission officials, as in the GEM-2 program, the mission and its Philippine
 Government counterparts focused on program implementation rather than expediting
 the signing of new agreements. The absence of formal implementation agreements
 that explicitly define the roles, responsibilities, and authorities of each party could
 result in less-than-optimal project implementation because of differing expectations
 and impaired coordination.

USAID’s policy, Automated Directives System (ADS) 202.3.5.3, recognizes USAID’s
critical coordinating role with respect to partners and host country governments. It notes
that strategic objective team leaders and activity managers are considered official U.S.
Government representatives and, as such, can open lines of communication. Further,
USAID’s policy states that USAID encourages strategic operating teams to establish
periodic meetings with broader partner groups to share information and elicit feedback.

As part of the GEM-2 implementation process, USAID/Philippines signed agreements
with its Philippine Government counterparts: the National Economic Development
Authority (Authority) and the Mindanao Economic Development Council (Council). The
GEM-2 implementation agreements were intended to define the roles and
responsibilities of the parties during implementation of the GEM-2 program.

However, considerable delays were experienced before the mission and its Philippine
Government counterparts signed these implementation agreements. For example, the
memorandum of understanding with the Authority was signed by the USAID/Philippines
mission director on August 12, 2004, but was not signed by the Authority until 9 months
later on May 18, 2005. There was an even longer delay in signing a memorandum of
agreement (MOA) between USAID/Philippines and the Council. The MOA was not
signed by both the principal parties until February 10, 2006, almost 4 years into the
GEM-2 program.

The GEM-2 program has ended and the new GEM-3 program has started, but as of April
2, 2008, the mission and its Philippine Government counterparts have not yet signed
agreements for the new GEM-3 program. USAID signed the contract with the contractor
for implementation of the GEM-3 program on December 19, 2007.

According to mission officials, as in the GEM-2 program, the mission and its Philippine
Government counterparts focused on program implementation rather than expediting the
signing of a new agreement for the GEM-3 program.




                                                                                       10
The absence of formal agreements that define the implementation arrangements
between the mission and its Philippine Government counterparts could result in less-
than-optimal project implementation because of differing expectations and impaired
coordination as roles, responsibilities, and authorities of each party are not formally
defined and agreed upon. As a result, this audit report makes the following
recommendation.

     Recommendation No. 3: We recommend that USAID/Philippines sign agreements
     with its Philippine Government counterparts as soon as possible to clearly establish
     the roles, responsibilities, and authorities regarding the new Growth with Equity in
     Mindanao program.



Annual Work Plans Were Incomplete
and Not Approved As Required

 Summary: USAID’s policy states that intended results need to be explicit in order to
 achieve results effectively, and that outputs–-critical to achieving results–-should be
 specifically described. In addition, USAID/Philippines’ contract with the contractor and
 agreement with its Philippine Government counterpart agency required the approval of
 the work plans. However, the contractor’s work plans lacked necessary information to
 be fully useful for monitoring and evaluating planned activities for the GEM-2 program
 and were not approved. The work plans lacked necessary information and were not
 approved because the GEM-2 contract lacked specificity on what the work plans
 should contain and a mission official indicated that an approved work plan was not an
 issue. Without a mutually agreed-upon annual work plan to accurately define interim
 milestones for the expected results, the mission lacked an effective tool to assess
 progress in achieving results to hold the contractor accountable for achieving targets
 in the timeframe planned.

USAID ADS 200.3.2.1 states that intended results need to be explicit in order to achieve
results effectively. Additionally, according to ADS 202.3.6, outputs are critical to
achieving results and are specifically described within the contract statement of work.

The GEM-2 contract stipulated that the GEM-2 Steering Committee should review and
approve the annual work plans and other key documents prepared by Louis Berger
Group, Inc. (contractor).     The Steering Committee was to be composed of
representatives from USAID, the contractor, and the Mindanao Economic Development
Council (Council) as the principal Philippine Government counterpart. The MOA
between the Council and USAID/Philippines, signed on February 10, 2006, likewise
provided that the Steering Committee should approve the work plans.

However, with regard to describing specific outputs, the contractor’s annual work plans
did not describe and establish specific planned infrastructure activities and the
corresponding time frames for the coming year. For example:

•	    The Year 4 Work Plan for October 1, 2005, to September 30, 2006, did not provide
      specific, detailed descriptions on the activity that was to be completed, and there
      was ambiguity as to when an activity would start or finish.



                                                                                       11
•	   The Year 5 Work Plan for October 1, 2006, to August 14, 2007, did not provide
     specific, detailed descriptions on the activity that was to be completed or the
     planned dates when an activity would be completed.

Although USAID policy requires specific outputs, the GEM-2 contract did not prescribe
the level of detail that an annual work plan should contain to achieve the objectives of
the program. Furthermore, the work plans were not approved by the Steering
Committee. A Council official indicated that the Council was neither reviewing nor
approving the GEM-2 work plans. This official added that the Council was not aware
that it was a requirement for them to do so. The Council further confirmed that no work
plans were presented to the Steering Committee for approval.

A mission official indicated that an approved work plan was not an issue since the
mission had a Performance Management Plan used for tracking progress against
performance indicators, which were then reported in the annual report and semiannual
portfolio reviews. However, the audit’s review of the fiscal year (FY) 2006 annual report
disclosed that the mission did not include the performance indicator for regional
infrastructure projects, which represented the single largest activity for GEM-2.

A contractor official also stated that he was not aware of a formal document that
indicated USAID approval of the work plans. The GEM-2 contract with the contractor did
not include a requirement for USAID’s cognizant technical officer to approve the annual
work plans.

Without properly prepared and approved work plans, the mission impaired its ability to
effectively monitor and evaluate the GEM-2 program and to hold the contractor
accountable for the timely achievement of specifically planned activities.

The audit does not make a recommendation on this issue because the new GEM-3
contract contains language that describes what the work plans should include, such as
the specific tasks/activities to be implemented to achieve annual performance targets or
expected results and the target dates for completion of those tasks/activities. The new
GEM-3 contract also specifically requires the cognizant technical officer to review and
approve the contractor’s work plans.




                                                                                      12
Progress Reports Lacked
Essential Information

 Summary:       USAID policy provides performance management techniques that
 missions are expected to follow to help ensure that projects deliver their planned
 outputs and meet their overall objectives. Although the quarterly progress reports
 submitted by the contractor highlighted actual accomplishments, the reports did not
 provide sufficient information on whether or not the contractor had met planned
 targets for each program activity. The GEM-2 contract did not include any specific
 language that described clearly what the required progress reports should address.
 As a result, the mission’s ability to identify potential implementation problems, initiate
 corrective actions early on, and make informed decisions on a timely basis for the
 GEM-2 program was reduced.

To help ensure that projects deliver their planned outputs and meet their overall
objectives, missions are expected to follow the performance management techniques
outlined in ADS 200.6. These techniques include (1) monitoring the results of activities,
(2) collecting and analyzing performance information to track progress toward planned
results, (3) using performance information to influence program decision-making and
resource allocation, and (4) communicating results achieved, or not achieved, to
advance organizational learning and tell USAID’s story.

The contractor submitted the required quarterly progress reports to the mission, but the
progress reports provided limited information on the progress being made toward
achieving GEM-2 planned results. For example, while the quarterly progress reports
highlighted actual accomplishments, they did not provide sufficient information on
whether or not the contractor had timely met planned targets for each program activity.

The audit determined that the GEM-2 contract did not include any specific language that
clearly describes what the required progress reports should address. In response, a
mission official indicated that the mission’s Performance Management Plan designated
certain performance indicators against which progress was tracked and reported in the
annual report and semiannual portfolio reviews. However, the audit team’s review of the
FY 2006 annual report disclosed that the mission did not include the performance
indicator for the GEM-2 regional infrastructure projects, even though this component was
the single largest cost activity in the GEM-2 program.

With the contractor's progress reporting limited to actual accomplishments, the mission
and the Philippine Government did not have all the information to effectively monitor and
assess whether the contractor was timely achieving planned results under the GEM-2
program. As a result, their ability to identify potential implementation problems, initiate
corrective actions early on, and make informed decisions on a timely basis for the GEM-
2 program was reduced.

The audit does not make a recommendation because the GEM-3 contract specifically
prescribes that the quarterly progress reports should include the expected outputs for
the quarter, report the major accomplishments for the same quarter, and discuss the
outstanding issues and implementation problems as well as the options for resolving
these issues and problems.



                                                                                         13
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Philippines agreed with the findings and
recommendations. Based on the audit’s review of the mission’s comments, detailed
actions, and supporting documents received, the audit determined that final actions have
been taken on the three recommendations in this report.

USAID/Philippines’ written comments on the draft report are included in their entirety
(without attachments) as appendix II to this report.




                                                                                     14
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila (RIG/Manila) conducted this performance audit
in accordance with generally accepted Government auditing standards.             Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. The objective of this audit
was to determine whether USAID/Philippines’ infrastructure activities under its Growth
with Equity in Mindanao-2 (GEM-2) program, implemented by Louis Berger Group, Inc.
(contractor), achieved planned results, and what was the impact.

The contractor was carrying out these activities under a 5-year, $83.6 million contract
that began on August 15, 2002. At December 31, 2007, the contractor had spent $82.1
million on GEM-2. As of the same date, USAID/Philippines had disbursed $80.3 million
to the contractor.

We focused our audit on the largest component of the GEM-2 program, infrastructure
development, which had a contract budget of $41.6 million, representing about half of
the total program contract budget of $83.6 million.

The audit was performed from January 29 through April 2, 2008. It covered
infrastructure construction activities implemented in Mindanao by the contractor from
August 15, 2002, through December 31, 2007.

Audit fieldwork was conducted at USAID/Philippines and the contractor offices in Manila
and Davao City. We also interviewed key officers of Philippine Government counterpart
agencies in Manila and Davao City. We made site visits to project sites in Mindanao,
specifically those on the island of Basilan and several provinces in Central Mindanao,
where the contractor implemented the infrastructure construction activities. Because of
security restrictions, we were not able to pursue our planned visit to project sites on the
island of Jolo.

As part of the audit, we assessed the significant internal controls used by
USAID/Philippines to manage its infrastructure construction activities. The assessment
included controls related to whether the mission (1) conducted and documented site visits
to evaluate progress and monitor quality, (2) required and approved contractor work plans,
(3) reviewed contractor progress reports, and (4) compared the contractor’s reported
progress to planned progress and the mission’s own evaluations of progress.

We also assessed significant internal controls used by the contractor to monitor
subcontractors’ activities. Specifically, we reviewed how the contractor ensured
compliance by its subcontractors with project design and specifications and construction
schedules.




                                                                                        15
We also reviewed the mission’s annual self-assessment of internal controls in
accordance with the Federal Managers Financial Integrity Act. Finally, we reviewed
relevant prior audit reports.


Methodology
To answer the audit objective, we interviewed officials and staff from USAID/Philippines,
the contractor, and the Philippine Government counterpart agencies (the National
Economic Development Authority and the Mindanao Economic Development Council).
We also reviewed and analyzed relevant documents at both the mission and the
contractor. This documentation included annual work plans, the contract and its
modifications, site visit and other monitoring reports, progress reports, and financial
reports and records.

The contractor uses Excel spreadsheets to track progress on each of the Barangay
Infrastructure Projects (BIPs) and Regional Infrastructure Projects (RIPs). To verify the
accuracy and reliability of the reported performance data, we traced the 830 BIPs and 40
RIPs reported as completed by the contractor in the final progress report to the
performance data in these spreadsheets.

To test the validity of the computer-processed data in the spreadsheets, we traced the
data to the documents maintained by the contractor for each of the 40 completed RIPs
and 28 judgmentally selected BIPs. These document reviews included tracing the 40
RIPs and 28 BIPs reported as completed to completion certificates and project
turnover/acceptance certificates. The completion certificates document the contractor
acceptance of the projects as being completed satisfactorily by the subcontractor in
accordance with authorized plans and specifications. The project turnover/acceptance
certificates document the contractor turnover of a particular project to the intended
beneficiaries.

We conducted site visits to seven RIPs and seven BIPs to test the reliability of reported
performance data, examine the quality of outputs, and observe that the facilities are
properly being operated and maintained by the beneficiaries. During the site visits, we
also interviewed the project beneficiaries to assess their satisfaction with the quality of
the completed facilities.




                                                                                        16
                                                                            APPENDIX II 




MANAGEMENT COMMENTS



July 25, 2008


TO:	            Catherine M. Trujillo, Regional Inspector General

                    (original signed by E. Washington)
FROM:	          Elzadia Washington, Acting Mission Director

SUBJECT: 	      Audit of USAID/Philippines Infrastructure Activities
                under its GEM-2 Program


Thank you for providing the draft report providing information and recommendations
coming out of the subject Audit. As requested, USAID is pleased herewith to provide
comments regarding the three recommendations included in the draft report.

Recommendation No. 1: We recommend that USAID/Philippines conduct post-
completion inspections on a sample of projects to ensure that they are being used
as intended and maintained by local governments before awarding those same
local governments any future projects.

USAID Response

USAID agrees that post-completion inspections of completed infrastructure projects, with
appropriate follow-up following the inspections, are important tools in the effort to
encourage LGU beneficiaries of infrastructure projects to comply with their
responsibilities to assure proper use and appropriate maintenance of the facilities.
USAID/Philippines has taken action to expand and intensify post-completion inspections
of completed infrastructure projects.

The principal mechanism developed during GEM-2 which was aimed at helping assure
proper use and maintenance of completed infrastructure facilities was the Beneficial Use
Monitoring (BUM) Program. Under the BUM Program, all completed infrastructure
projects were to be visited/inspected by a BUM Team within six months of their being
completed, with a report being prepared by the BUM Team with respect to their
findings. In the case of completed projects where the BUM Team identified problematic
situations with respect to use or maintenance of a facility, follow-up "Get Well" letters
were sent to the owner of the facility (usually a municipal government) pointing out the
deficiency and requesting that action be taken to address the concern. Follow-up visits
were then made by the nearest GEM Regional office to ascertain whether corrective
actions were taken. If not, additional steps were taken - including enlisting MEDCo to



                                                                                      17

contact the relevant LGU officials to urge action; contacting the provincial governor
to request that he/she approach the LGU to urge action; etc. Municipal and provincial
leaders were advised that failure to assure proper use and maintenance of facilities
would jeopardize prospects of their receiving additional projects in the future.

While the BUM system, which was also supplemented by occasional visits on completed
projects by USAID engineers, did largely serve the purpose for which it was designed, it
did not result in 100% compliance by all beneficiary LGUs with the requirements to
assure optimal use and maintenance of the facilities provided. Reports from USAID and
GEM staff traveling around Mindanao occasionally cited problems with some facilities.
The RIG report also indicates that the BUM system had not been working perfectly.

Accordingly, USAID has directed GEM-3 leadership to modify some procedures
associated with management of GEM-3 infrastructure activities. The revised procedures
are aimed at increasing prospects that all beneficiaries will be more diligent in carrying
out their responsibilities to assure proper use and maintenance of facilities. GEM-3 has
taken the requested steps. These steps include:

   - Assuring that the "Barangay Infrastructure Program (BIP) Fact-Sheet" (the broadly
distributed brochure which describes the BIP program and is often the principal source
of information LGUs have about the BIP Program) includes language making it clear that
acceptable past performance in managing and maintaining infrastructure is a key factor
used in determining eligibility for future infrastructure assistance. (A copy of the GEM-3
"BIP Fact-Sheet," which includes this language, is attached – Attachment 1).

   - Modifying the standard MOU signed between GEM and the beneficiary LGUs laying
out obligations and expectations of each party with respect to the infrastructure facility to
be constructed to include specific language advising that failure of the LGUs to assure
proper use and maintenance of the facility may result in the disqualification of the LGU
from eligibility for any future GEM program support. (See Clauses V and XII of the
attached standard MOU - Attachment 2).

   - Modifying the BUM Program procedures so as to: 1. specify that there are two
inspection trips to completed facilities in the year following completion of the facilities
(e.g., at 4-5 months after completion, and then at 8-11 months after completion), and
then at least one visit during each succeeding year; 2. include specific language in the
"Get Well" letters sent to LGUs where concerns had been identified to alert the LGU
that "failure to resolve these issues might jeopardize future collaboration between your
municipality and the GEM Program," and advising the LGU that processing of any and
all proposed GEM projects for the LGU is being put "on-hold" pending corrective action
on concerns identified with previously completed projects. (Copies of the GEM-3 BUM
Guidelines, and copies of two typical "Get Well" letters to municipalities are attached -
Attachment 3).

USAID believes the steps taken, as discussed above, will result in improved LGU
performance in managing and maintaining infrastructure facilities. These actions will be
supplemented and reinforced by regular inspection visits by USAID engineers and other
staff.




                                                                                          18
Recommendation No. 2: We recommend that USAID/Philippines obtain a legal
counsel determination on USAID's legal rights regarding the surety bonds under
the GEM-2 Program.

USAID Response

USAID agrees with the recommendation and has taken action to remedy any potential
problem emanating from the surety bond situation.

As pointed out by the Audit, the surety bonds the GEM-2 contractor (the Louis Berger
Group - LBG) required be obtained by all sub-contractors undertaking construction work
on GEM-2 infrastructure projects (to guarantee the repair of defects for the completed
projects) specified that the beneficiary of the bonds would be the LBG. This prompted
concern by the Auditors as to whether USAID would be able to collect payment against
the bonds in the event that, during the one-year life of the surety bonds, the LBG Group
disappeared from the scene (i.e, because they lost the overall GEM contract, or went out
of business, or the like).

In looking into the matter, USAID determined that the Auditor's concerns were well
founded. Communications sent to the six principal surety bond issuing companies used
by the GEM-3 construction sub-contractors resulted in their advising that, as the policies
were written, USAID would not automatically become the beneficiary of the bonds
should LBG go out of business. They advised that in order to correct this situation, LBG
should request that the parties that purchased the surety bonds (the various construction
sub-contractors) approach the surety bond companies with written requests that the
policies be amended to show USAID as the beneficiary in the event LBG goes out of
business, or was no longer the prime contractor.

However, as the surety bonds on all of the remaining projects (8 of them) will expire
within the next six weeks, and as it is not likely that LBG will disappear from the scene
during the next six weeks, USAID believes it not worthwhile to have the still extant surety
bonds amended at this time.

For GEM-3 projects, however, USAID requested that the surety bond issue be
addressed so that the potential problem could be prevented. The following corrective
actions were taken:

- LBG has modified the standard provisions attached to all its construction sub-contracts
(e.g., its "Conditions of Subcontract"), to add the following language in the provision
dealing with "Retention" (provision 43.2) - "This bank guarantee or surety bond shall
guarantee the project against latent defects that may be discovered later due to faulty
construction, and shall remain effective until the end of the Defects Liability Period. The
surety bond shall provide the Louis Berger Group, Inc, and/or the U.S. Agency for
International Development, as assured." (A copy of the relevant pages of the
Conditions of Subcontract is attached - Attachment 4).

   - the standard draft Surety Bond which LBG provides to its sub-contractors (to guide
them as they go about obtaining surety bonds from suitable providers) was also modified
to add language showing USAID as well as LBG as the assured. (A copy of that
document is attached – Attachment 5).



                                                                                        19
USAID believes the above steps will assure that USAID becomes the beneficiary of the
Surety Bonds in the event LBG disappears from the scene.

Recommendation No. 3: We recommend that USAID/Philippines sign agreements
with their Philippine Government counterparts as soon as possible to clearly
establish the roles, responsibilities, and authorities regarding the new Growth
with Equity in Mindanao Program.

USAID Response

USAID agrees with the recommendation regarding agreements, and has taken
appropriate actions.

USAID's GEM-3 Program is the principal activity being carried out under the Mindanao
Peace and Development (MPAD) Agreement, which was signed by USAID (on behalf of
the USG) and the Mindanao Economic Development Council (MEDCo) (on behalf of the
GRP) in September 2007 at Malacanang Palace. As such, the parameters of the GEM-
3 Program, and the principal understandings between the USG (USAID) and the GRP
(MEDCo) with respect to the GEM-3 Program - including its objectives, its component
activities, roles and responsibilities of the USAID and MEDCo with respect to the
Program, indicators to be used to measure attainment of objectives, etc. - are laid out in
the MPAD Agreement.

These understandings were further elaborated in correspondence between the
Executive Director of MEDCo and the USAID CTO regarding an "Aide Memoire on the
Agreements made during the USAID-MEDCo meeting of 24 January 2008." The Aide
Memoire was sent to USAID as an e-mail attachment on 7 March 2008, with USAID
acknowledging the accuracy of the Aide Memoire in an email to MEDCo dated 10 March
2008. The Aide Memoire lays out mutual understandings between USAID and MEDCo
with respect to: 1. MEDCo oversight of GEM-3 through a Steering Committee and a
Management Committee; 2. Procedures to be followed with respect to
identification/packaging/approving/contracting for/monitoring/etc. all GEM-3
infrastructure projects; and 3. Logistic and staff support required by MEDCo for proper
oversight of MPAD/GEM-3 activities. (A copy of the Aide Memoire and accompanying e-
mail messages is attached - Attachment 6).

USAID believes that between the overall MPAD Agreement, and the subsequent
agreements as laid out in the Aide Memoire between USAID and MEDCo mentioned
above, that both parties are fully aware of each others obligations and expectations.



Attachments:
       1) BIP Fact-Sheet
       2) MOU
       3) GEM-3 BUM Guidelines
       4) Conditions of Subcontract
       5) Draft Surety Bond
       6) Aide Memoire/E-Mail messages




                                                                                        20
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
